                            AUDIT OF SBA’S LOAN
                       APPLICATION TRACKING SYSTEM

                          AUDIT REPORT NUMBER 4-18

                                    APRIL 5, 2004




This report may contain proprietary information subject to the provisions of 18 USC
1905 and must not be released to the public or another agency without permission of the
Office of Inspector General.
                   U.S. SMALL BUSINESS ADMINISTRATION
                       OFFICE OF INSPECTOR GENERAL
                           WASHINGTON, D.C. 20416


                                                             AUDIT REPORT
                                                 Issue Date: April 5, 2004
                                                 Number: 4-18


To:           Stephen D. Galvan
              Chief Operating Officer
              Chief Information Officer

              Ronald E. Bew
              Office of Capital Access
              Associate Deputy Administrator

              Michael E. Pappas
              Associate Administrator for Field Operations

              Thomas A. Dumaresq
              Chief Financial Officer


From:         Robert G. Seabrooks (FOIA Ex. 6)
              Assistant Inspector General for Audit

Subject:      Audit of SBA’s Loan Application Tracking System

        We have completed an application controls review of the Loan Application
Tracking System (LATS) using Federal Information System Controls Audit Manual
(FISCAM) guidance. Application controls are the structure, policies, and procedures that
apply to separate, individual application systems, such as accounts payable, inventory,
payroll, grants, or loans.

                                   BACKGROUND

       SBA’s Loan Application Tracking System (LATS) is a subsystem of SBA’s Loan
Accounting System (LAS). LAS is SBA’s major application for tracking and accounting
for SBA loan portfolio activity. LATS was internally designed over 20 years ago using
the computer programming language COmmon Business Oriented Language (COBOL).
LATS supports LAS by providing a data entry system for SBA’s loan application
tracking process.
       Upon receipt of SBA 7(a) and 504 loan applications at agency field offices, SBA
loan personnel enter necessary loan information into LATS for tracking and approval
purposes. Key functions of LATS are the establishment of a loan application record and
generation of a loan number upon loan approval. This loan number uniquely identifies
the SBA loan throughout its life. After loan approval, LATS information is transmitted
to LAS.

                  OBJECTIVES, SCOPE AND METHODOLOGY

       The objective of this audit was to determine whether SBA LATS financial system
application controls were adequate to ensure the integrity and confidentiality of system
data. Specifically, we assessed the adequacy of SBA’s LATS application controls in the
following areas:

           •   Authorization Controls
           •   Completeness Controls
           •   Accuracy Controls
           •   Controls over integrity of processing and data files

        To accomplish these objectives we evaluated and tested the effectiveness of the
LATS application controls by observing the controls in operation at the SBA Washington
District Office and SBA Headquarters offices, examining related documentation and
discussing the controls with knowledgeable personnel and system users. We followed
FISCAM guidance to conduct our review. Additionally, we reviewed the FISCAM
reports completed by Cotton & Company LLP, for FY’s 2000, 2001 and 2002.
Fieldwork was performed at SBA’s Central Office in Washington, DC, from June 2003
to August 2003. Our audit was conducted in accordance with generally accepted
Government Auditing Standards.

                                   AUDIT RESULTS

        SBA has generally integrated adequate application controls in the design and
operation of LATS. [FOIA Ex. 2 & 5]. Additionally, we determined that the ownership
of SBA’s LAS is not adequately represented by responsible SBA offices operating the
system, and that software changes to both LATS and LAS could be better coordinated by
establishing a Configuration Control Board (CCB).

Finding 1: Computer Desktop Access to the LATS Transaction Screens is not
           Secure

       [FOIA Ex. 2 & 5]


        Chapter 3 of SBA Standard Operating Procedure (SOP) 90-47 – Automated
Information Systems Security Policies states that passwords must be used to authenticate
account users. Additionally, Section AN-2.1 of the GAO FISCAM states that financial



                                             2
information system operators should be required to use a unique password and
identification code before being granted access to a system.

       [FOIA Ex. 2 & 5]

        The Office of Financial Assistance (OFA) owned and operated Electronic
Transfer (E-tran) System is capable of replacing LATS in SBA’s LAS. The
E-tran Gateway is part of SBA’s E-loan initiative to improve back-office loan functions
impacting customer service. E-tran is currently in operation under an OFA sponsored
pilot program with selected lenders submitting SBA Express guaranty loan requests
electronically. E-tran offers improved security controls over LATS by implementing
128-bit encryption for all file transfers. Additionally, E-tran authenticates users through
unique user ID and password controls.

Recommendation: We recommend that the Chief Operating Officer in conjunction with
the Office of Capital Access, the Office of the Chief Information Officer and the
Assistant Administrator for Field Operations:

1A.    Implement an interim security control to prevent unauthorized access to LATS, or

1B.    Replace LATS with E-tran for field office utilization in the submission of SBA
       loans after the certification and accreditation of the E-tran system has been
       completed.

Management Response:

         The Chief Operating Officer / Chief Information Officer and Chief Financial
Officer agreed with recommendation 1B and stated that they will coordinate with the
Associate Deputy Administrator for Capital Access and the Assistant Administrator for
Field Operations to replace LATS with E-tran for all loans processed outside the SBA
district offices. SBA’s complete response is included in Attachment 1.




Assessment of Management Response:

        We modified our recommendation and addressed it to the Chief Operating Officer
since he responded to the audit report as head of SBA operations. SBA comments are
generally responsive to the audit recommendation. However, SBA officials need to
clarify their response for District Offices and how loans will be more securely entered
into the Loan Accounting System via the District Offices. Such clarification will be
addressed during the audit follow-up process.

Finding 2: Ownership of the Loan Accounting System is not Appropriately
           Assigned



                                             3
        Ownership of LAS does not accurately reflect the offices which actually own the
system. SBA security documentation identified that SBA’s Chief Financial Officer owns
and has overall responsibility for LAS. This occurred because ownership of LAS was
inappropriately designated to the Chief Financial Officer in March of 2001. As a result,
operational units within SBA including the Office of Capital Access, Office of Field
Operations, Office of Disaster Assistance and the Office of Chief Information Officer do
not currently have a formal direct stake in the operations, risks and capabilities of LAS.
Since responsibilities have not been appropriately designated, coordination between SBA
offices for changes to the LAS environment is therefore, not effectively administered.

        OMB Circular A-130, Appendix 3, Section B.3.4. requires that for major
applications, a management official shall provide written authorization for use after
confirming that its security plan as implemented adequately protects the application.
Management authorization implies accepting the risk of each system used by the
application. Additionally, SBA’s System Development Methodology (SDM) requires the
establishment of a Change Control Board (CCB) for all new application projects.

        A computer system CCB identifies the software programming baseline. The CCB
is responsible for identifying proposed changes to the system and the priority for making
those changes to system computer programs. The CCB is also responsible for testing and
approving software changes made to the system before those changes are implemented.
The SDM states that CCB members should be comprised of program officials, system
users, and all other organizational areas with a direct interest in the system. A CCB
should be implemented for LAS to facilitate change coordination and develop long-term
strategies for modernization.

       SBA’s SDM recognizes the need for more than one owner by mandating a
configuration control board for all system owners. We believe that ownership should be
designated to all relevant SBA offices to ensure required system functionality and support
of owner interests.




Recommendations:

2A.    We recommend that the Chief Information Officer identify and require all SBA
       program offices with partial ownership of LAS and its subsystems to properly
       accredit or authorize the LAS for production for the next system accreditation.

2B.    We recommend that the Chief Information Officer, in coordination with program
       officials from the Office of Chief Financial Officer, Office of Capital Access,
       Office of Field Operations and Office of Disaster Assistance, establish a Change
       Control Board for SBA’s LAS.




                                            4
Management Response:

       The Chief Operating Officer / Chief Information Officer and Chief Financial
Officer agreed with recommendations 2A and 2B except noted that the Chief Information
Officer, not the Chief Financial Officer should establish a Configuration Control Board
(CCB) for SBA’s Loan Accounting System.

Assessment of Management Response:

     We agreed with SBA’s request and amended our recommendation accordingly.
SBA Management’s comments are responsive to recommendations 2A and 2B.

                                         ***
       The findings included in this report are the conclusions of the Auditing Division
based upon the auditors’ review of application controls for the Loan Application
Tracking System (LATS). The findings and recommendations are subject to review and
implementation of corrective action by your office following the existing Agency
procedures for audit follow-up and resolution.

       This report may contain proprietary information subject to the provisions of 18
USC 1905. Do not release to the public or another agency without permission of the
Office of Inspector General

        Should you or your staff have any questions, please contact Jeffrey R. Brindle,
Director, Information Technology and Financial Management Group, at (202) 205-[FOIA
Ex. 6].


Attachments




                                            5
                      U.S. SMALL BUSINESS ADMINISTRATION
                          OFFICE OF INSPECTOR GENERAL
                              WASHINGTON, D.C. 20416



Date:            March 30, 2004

To:              Robert Seabrooks, AIG for Auditing

From:            Stephen Galvan, COO/CIO [FOIA Ex. 6]
                 Thomas Dumaresq, CFO [FOIA Ex. 6]

Subject: Audit of SBA’s Loan Application Tracking System

         SBA’s Loan Application Tracking System (LATS) is a subsystem of SBA’s Loan Accounting
System (LAS). Based on a recent audit of LATS, the OIG has determined that SBA has generally
integrated adequate application controls in the design and operation of LATS. However, the OIG
highlighted two problems: (1) [FOIA Ex. 2 & 5] and (2) Ownership of LAS is not adequately
represented by responsible SBA offices operating the system and that a Configuration Control Board
(CCB) should be established for SBA’s LAS.

        OIG Recommendations:
1A.     Implement an interim security control to prevent unauthorized access to LATS, OR

1B.     Replace LATS with E-tran for field office use in the submission of SBA loans after the
        certification and accreditation of the E-tran system has been completed.

2A.     Recommend that the CIO identify and require all SBA program offices with partial ownership of
        LAS and its subsystems to properly accredit or authorize the LAS for production for the next
        system accreditation.

2B.     Recommend that the CFO, in coordination with program officials from the OCIO, OCA, OFO,
        and ODA establish a Change Control Board (CCB) for SBA’s LAS.

        SBA Responses:
        We agree with 1B for all loans processed outside the SBA district offices and will work with
        the ADA for Capital Access and the Assistant Administrator for Field Operations to replace
        LATs with E-tran when appropriate.

        We agree with both 2A and 2B, with the modification that the CIO, not the CFO (as
        suggested by the OIG audit), should establish a Configuration Control Board (CCB) for
        SBA’s LAS.
                                         REPORT DISTRIBUTION


Recipient                                                                                                 No. of Copies

Office of the Chief Financial Officer
Attention: Jeffrey Brown ........................................................................................1

General Counsel.......................................................................................................3

U.S. General Accounting Office..............................................................................1
